                      ort




            FINANCIAL STATEMENT PRESENTATION
                OF DOD PROGRESS PAYMENTS



Report No. 98-139




              Office of the Inspector General
                  Department of Defense
  Additional    Information   and Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 6048937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
  General, DOD Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions    for Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate
  at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                       OAIG-AUD (ATTN: APTS Audit Suggestions)
                       Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste,or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.M;
  or by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-l 900.
  The identity of each writer and caller is fully protected.




Acronyms

                       Army Audit Agency
AFAA                   Air Force Audit Agency
DBOF                   Defense Business Operations Fund
DFAS                   Defense Finance and Accounting Service
DLA                    Defense Logistics Agency
GLAC                   General Ledger Account Code
IG                     Inspector General
USD(C)                 Under Secretary of Defense (Comptroller)
                                     INSPECTOR     GENERAL
                                     DEPARTMENT    DF DEFENSE
                                       400 ARMY NAVY DRIVE
                                     ARLINGTON, VIRGINIA 22202




                                                                             May 27, 1998

MEMORANDUM         FOR UNDER SECRETARY           OF DEFENSE (COMPTROLLER)


SUBJECT:    Audit Report on Financial Statement Presentation     of DoD Progress Payments
            (Report No. 98-139)


        We are providing this audit report for review.and comments. We performed this
audit in response to the Chief Financial Officers Act of 1990 and the Federal Financial
Management Act of 1994.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
Because the Under Secretary of Defense (Comptroller) did not comment on a draft of this
report, we request comments on the final report by June 29, 1998.

        We appreciate the courtesies extended to the audit staff Questions on the audit
should be directed to Mr. James L. Kornides, at (614) 75 I- 1400, extension 11, e-mail
<JKomides@dodig.osd.mil>,     or Mr. Stuart D. Dunnett, at (614) 751-1400, extension 14,
e-mail <SDunnett@dodig.osd.mil>.      See Appendix C for the report distribution. The
audit team members are listed inside the back cover.




                                          Robert J. Lieberman
                                       Assistant Inspector General
                                               for Auditing
                               O&e of the Inspector General, DOD


Report No. 98-139                                                           May 27,1998
   (Project No. 6FJ-2010.01)



        Financial Statement Presentation of DOD Progress Payments


                                     Executive Summary

Introduction. Progress payments are a means of providing contract financing for work-
in-process expenditures on fixed-price Government contracts with long lead times.
Progress payments are designed to alleviate undue strain on a contractor’s cash flow and
provide interim financing as progress occurs. This is the second in a series of reports
resulting from our DOD-wide audit on the financial reporting of DOD progress payments.
This report discusses the disclosure of the progress payments DOD organizations made to
contractors in FY 1996. The previous report addressed disclosure of the portions of
progress payments that were due, but were withheld from contractors pending completion
of the contract (contract holdbacks). This audit was performed in conjunction with the
Military Department audit agencies.

The Defense Contract Management Command is primarily responsible for administering
and approving progress payments on DOD contracts, and the Defense Finance and
Accounting Service is responsible for payment. During FY 1996, the Military
Departments and the Defense Logistics Agency reported $29.6 billion of progress
payments that the Defense Finance and Accounting Service paid to DOD contractors.

During FY 1997, the Defense Business Operations Fund was realigned into several
Working Capital Funds. This realignment does not affect the matters discussed in this
report.

Audit Objectives. Our audit objective was to determine whether progress payments
were accurately shown on the financial statements of the DOD General Fund and the
Defense Business Operations Fund for FY 1996.

Audit Results. Due primarily to the lack of clear and timely guidance, the Military
Departments and the Defense Logistics Agency materially misstated the $29.6 billion of
progress payments reported on the FY 1996 DOD financial statements. The Army and the
Navy reported progress payments as Property, Plant, and Equipment, and the Air Force
and the Defense Logistics Agency reported progress payments as Advances and
Prepayments. Additionally, the data reported by the Navy included purchases of assets
with non-progress payment funds, and the Air Force did not include progress payment
data on unmatched transactions. The inconsistent reporting of progress payments
distorted their presentation in the financial statements. We believe the payments should be
shown consistently by the Military Components in accordance with guidance developed by
the Accounting and Auditing Policy Committee. Unless progress payments are
consistently and accurately presented, the FY 1998 and future financial statements will
also misstate progress payments.

Management did not identify the presentation of progress payments as a material
management control weakness. Appendix A describes the management controls assessed
and discusses the material management control deficiencies found during the audit.

Summary of Recommendations.        We recommend that the Under Secretary of Defense
(Comptroller) implement policy for progress payment reporting in accordance with the
guidance from the Office of Management and Budget, and require that the policy be
consistently applied.

Management Comments. The Under Secretary of Defense (Comptroller) did not
comment on the draft report. Therefore, we request written comments on the final report
by June 29, 1998.




                                           ii
Table of Contents

Executive Summary                                             i

Part I - Audit Results
      Audit Background
      Audit Objective
      Presentation of Progress Payments in the FY 1996 DOD
      Financial Statements

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                                10
        Methodology
        Management Control Program Review                    ti?
      Appendix B. Summary of Prior Coverage                  12
      Appendix C. Report Distribution                        15
Part I - Audit Results
Audit Background
    Progress payments are assets that must be reported on the statements of financial
    position. Public Law 101-576, the “Chief Financial Officers Act of 1990,” requires
    the annual preparation and audit of financial statements for trust funds, revolving
    funds, and substantial commercial activities of Executive departments. Public Law
    103-356, the “Government Management Reform Act of 1994,” requires the
    preparation and audit of DOD consolidated financial statements for all accounts
    beginning in FY 1996.

    Progress payments provide contract financing for work-in-process expenditures on
    fixed-price Government contracts with long lead times. Progress payments are
    designed to alleviate undue strain on a contractor’s cash flow and provide interim
    financing as progress occurs. Contractors use progress payments to finance
    operating expenses -- such as research and development, purchases of raw
    materials, special tooling, and test equipment -- instead of obtaining construction
    loans. Federal Acquisition Regulation 32.503-S requires that progress payments
    be supported by the fair value of the work accomplished by the contractor.

    Defense Federal Acquisition Regulation Supplement 232.50 1- 1, “Customary
    Progress Payment Rates,” designates a customary DOD progress payment rate of
    75 percent of a contractor’s cumulative costs. Contractors provide cost data
    through progress payment invoices that summarize the total costs incurred on a
    contract as of a specified date. As goods and services are provided, progress
    payments are liquidated, or recouped, based on the progress payment rate
    established in the contract. A recoupment is an accounting adjustment from a
    temporary disbursement account to the account where the obligation is properly
    recorded. When progress payments are recouped, DOD pays the remaining
    amount owed minus the prior progress payments.

    The Defense Contract Management Command is primarily responsible for
    administering and approving progress payments on DOD contracts, and the
    Defense Finance and Accounting Service (DFAS) is responsible for payment. In
    FY 1996, the DFAS Columbus Center disbursed about $14 billion in non-foreign
    military sales progress payments to Defense contractors. As of September 30,
    1996, the Military Departments and the Defense Logistics Agency @LA) reported
    $29.6 billion in unliquidated progress payments.

    This is the second in a series of reports resulting from our DOD-wide audit on the
    financial reporting of DoD progress payments. This report discusses the financial
    reporting of progress payments that the Military Departments and DLA made to
    contractors in FY 1996. The previous report addressed the disclosure of portions
    of the contractor costs that were incurred in FY 1996 but were withheld from
    contractors pending completion of the contract (contract holdbacks). The Military
    Department audit organizations assisted us in developing information used in this
    report.



                                         2
Audit Objective
     The primary objective of our audit was to determine whether progress payments
     were accurately reflected on the FY 1996 financial statements of the DOD General
     Fund and the Defense Business Operations Fund (DBOF). We evaluated
     management controls over the presentation of progress payments (Appendix A).
     Prior audit coverage is discussed in Appendix B.
           Presentation of Progress Payments in the
           FY 1996 DOD Financial Statements
           Due to the lack of clear and timely guidance, the Military Departments and
           DLA materially misstated the $29.6 billion of progress payments reported
           on the DOD financial statements. The Army and the Navy reported
           progress payments as Property, Plant, and Equipment, and the Air Force
           and DLA reported progress payments as Advances and Prepayments. The
           Navy also reported data that included non-progress payment purchases of
           other assets, and the Air Force did not include progress payment data on
           unmatched transactions.

           This condition occurred because:

                  o the Military Departments and DLA used different accounting
           guidance to report progress payments in their respective financial
           statements,

                  o Department of the Navy accounting systems could not produce
           complete and reliable information, and

                   o the Department of the Air Force did not disclose and had not
           researched about $4.5 billion in unmatched progress payment transactions.

           Unless progress payments are consistently and accurately presented, the
           financial statements for FY 1998 and the future will also misstate progress
           payments.


Progress Payment Guidance

    The Federal Accounting Standards Advisory Board and DOD have issued different
    accounting guidance for progress payments.

    Federal Accounting Standards Advisory Board Guidance. The Federal
    Accounting Standards Advisory Board issued general guidance on progress
    payments, but did not indicate where progress payments should be reported on the
    financial statements. However, the guidance indicated where progress payments
    for construction projects should not be reported. Statement of Federal Financial
    Accounting Standard No. 1, “Accounting for Selected Assets and Liabilities,”
    March 30, 1993, stated that Advances and Prepayments do not include progress
    payments made on long-term contracts, and that progress payments made to a
    contractor based on the percentage of completion of a contract are not advances
    and prepayments. However, the guidance did not address progress payments


                                         4
     Presentation   of Progress Payments in the FY 1996 DOD Financial Statements



    based on costs incurred by a contractor. Additionally, Standard No. 1 did not
    state which general ledger account should be used to account for progress
    payments on the statements of financial position.

    DOD Form and Content Guidance. In the “DOD Guidance on Form and
    Content of Financial Statements for FY 1996 Financial Activity” (DOD Form and
    Content Guidance), October 1996, the Under Secretary of Defense (Comptroller)
    (the USD[C]) established DOD accounting policy for progress payments. Chapter
    7, “Special Procedures,” stated that weapon systems under construction should be
    valued at the amount of approved progress payments and recorded in a new
    general ledger account, “Progress Payments Made to Others,” General Ledger
    Account Code (GLAC) 1453. However, the USD(C) stated that the “Progress
    Payments Made to Others” account should be reported in “Advances and
    Prepayments” on the DOD General Fund financial statements.

    Appendix 3-B of the DOD Form and Content Guidance requires DBOF
    organizations to report progress payments as Work-in-Process, GLAC 1580.


Progress Payment Reporting
    Progress payment accounting data were not accurately or consistently presented
    on the Military Department and DLA financial statements, were not posted to the
    appropriate accounting records, and were generally unreliable. The Military
    Departments and DLA were forced to use conflicting accounting guidance and
    reported progress payments differently in their financial statements. Also, the
    Navy did not report an accurate and reliable progress payment balance in its
    General Fund financial statements, and the Air Force did not disclose the effect of
    $4.5 billion in unmatched progress payment transactions.

    Army. The Army followed the intent of Federal Accounting Standards Advisory
    Board Standard No. 1 and reported $2.47 billion of progress payments in GLAC
    1582, Work-In-Process-Contractor, which matched the Property, Plant, and
    Equipment line item on the Army General Fund financial statements. The Army
    had been using this method of reporting and decided not to follow the DOD
    guidance, which required that progress payments be reported as Advances and
    Prepayments.

    The Army also reported progress payments in its equity and expense accounts.
    For example, the Army Audit Agency (AAA) reviewed $330.3 million in Army
    progress payments made during FY 1996 and found that $32.4 million were posted
    to equity or expense accounts.

    The AAA concluded that progress payments were reported inconsistently because
    the DFAS Indianapolis Center’s operating locations and accounting offices did not
    follow DOD procedures. When the AAA questioned accounting personnel about


                                         5
Presentation   of Progress Payments in the FY 1996 DOD Financial Statements



               the use of expense and equity accounts for posting progress payments, the
               accounting stations agreed to post them to GLAC 1582, Work-In-Process-
               Contractor.

               The A4A determined that progress payments for the Army Working Capital Fund
               were appropriately presented on the “Inventory, Net” line item of the financial
               statements. However, the AAA concluded that the progress payment data used in
               the Army General Fund FY 1996 financial statements could not be relied on to
               make management decisions.

               Navy. The Navy also generally complied with Federal Accounting Standards
               Advisory Board Standard No. 1 and did not report progress payments as Advances
               and Prepayments. Instead, the Navy reported $19.9 billion in progress payments
               and other assets in the “Property, Plant, and Equipment, Net” line item of the Navy
               General Fund Statement of Financial Position. However, the reported $19.9
               billion in progress payments was inaccurate because it included assets purchased
               without using progress payments. The Naval Audit Service could not determine
               how much of the $19.9 billion actually represented progress payments on weapon
               systems because the supporting data were incomplete and unreliable. The Navy
               also inconsistently reported $2 15,000 in progress payments on the “Advances and
               Prepayments” line item of the Navy General Fund Statement of Financial Position.

               Because of the incomplete and unreliable accounting data, the Navy could not
               retrieve accurate progress payment amounts from its systems. The accounting
               system used by the DFAS Cleveland Center did not produce complete and reliable
               information, and a data call on procurement appropriations, made by the Assistant
               Secretary of the Navy (Financial Management and Comptroller), was ineffective.
               Details are as follows.

                       Accounting Data. The Navy Standard Accounting and Reporting System
               used by DFAS Cleveland Center could not accurately post and summarize
               progress payment transactions forwarded by the DFAS Columbus Center. For
               example, progress payments made from the Shipbuilding and Conversion
               appropriation showed a credit balance of $1.3 billion. Progress -payments
               represent assets and should be debits in the accounting system. Because the credit
               was inaccurate, progress payment amounts recorded in the Standard Accounting
               and Reporting System were incomplete and unreliable.

                        Data Request. Because the Navy accounting system could not produce
               reliable data, the Navy used a data call to obtain the balance of unliquidated
               progress payments. The data request identified a balance of $19.9 billion.
               However, that amount was overstated. The Naval Audit Service reported that the
               FY 1996 Navy General Fund financial statements included an indeterminable
               amount of other asset purchases in the $19.9 billion.




                                                    6
     Presentation   of Progress Payments in the FY 1996 DOD Financial Statements



     Air Force. The Department of the Air Force did not report progress payments in
     accordance with Federal Accounting Standards Advisory Board Standard No. 1.
     Instead, the Air Force reported progress payments as Advances and Prepayments,
     in accordance with the DOD Form and Content Guidance.

     The Air Force Audit Agency @FAA) could not determine the accuracy or
     reliability of the $7 billion in progress payments reported on the Air Force General
     Fund Financial Statements. This occurred because the Air Force and DFAS did
     not research and disclose the effect on the financial statements of about $4.5 billion
     in unmatched progress payment transactions. Unmatched transactions are held in
     suspense because payment data do not match the data in the accountable system
     records.

     The AFAR also could not determine the correct account balance for progress
     payments reported in the FY 1996 Air Force General Fund Consolidated Financial
     Statements. The AFAA reported that DFAS accounting personnel had not
     researched progress payment transactions related to $4.2 billion of canceled
     appropriations. Recoupments represented $3.7 billion of the $4.2 billion in
     progress payment transactions from canceled appropriations. DFAS personnel
     stated that the $3.7 billion in progress payment recoupments represented valid
     transactions, as well as over-recoupments, mismatched transactions, and errors.
     Also, other unmatched progress payment transactions of $344 million were not
     researched to determine whether they were valid. Additionally, DFAS Denver
     Center personnel did not disclose the $4.5 billion of unmatched transactions in the
     footnotes to the financial statements. These discrepancies significantly affected the
     accuracy and completeness of the progress payments reported by the Air Force.

     DLA. DLA inappropriately reported all $200 million of its progress payments as
     Advances and Prepayments on the DLA DBOF Consolidated Financial Statements.
     The DOD Form and Content Guidance requires DBOF activities to report progress
     payments in the Work-in-Process account because the deliverable items are sold as
     inventory to DLA customers.


Effect on Financial Statements

     Progress payments were not consistently or accurately presented on the DOD
     financial statements. As a result, $29.6 billion of progress payment data was
     erroneously summarized in multiple accounts on the statements. Although
     management was aware of the differences in the disclosures and the problems with
     the amounts reported, these problems were not adequately disclosed in the
     footnotes to the financial statements. Inconsistencies and other variations in
     reported amounts should be disclosed in the footnotes to the financial statements
     to provide balanced information to users. Improvements are needed to properly
     consolidate data on progress payment accounting. In addition, the indeterminable
     amount of other assets included in the $19.9 billion of progress payments reported
     by the Navy and the $4.5 billion of undisclosed Air Force progress payments could

                                           7
Presentation   of Progress Payments in the FY 1996 DOD Financial Statements



               materially affect the progress payment balances reported by the Navy and the
               Air Force. This would also affect the accuracy of the DOD Consolidated Financial
               Statements. Unless progress payment transactions are consistently and accurately
               presented, progress payments will be misstated on the FY 1998 and future financial
               statements.


       Conclusion
               Consistent application of accounting policy for reporting progress payments is
               needed to ensure the proper consolidation of DoD progress payments on the
               financial statements and to improve the accuracy of reported progress payment
               balances. As part of this DOD-wide audit, the Military Department audit
               organizations made recommendations addressing the weaknesses in their
               Departments. We are not repeating the recommendations.       However, at the time
               of this audit, the USD(C) and the Inspector General (IG), DOD, were attempting
               to resolve a disagreement over where progress payment balances should be shown
               on the financial statements. That disagreement resulted from IG, DOD, Report
               No. 97- 100, “Asset Presentation on Military Department General Fund Financial
               Statements,” February 25, 1997. As a result of mediation, the USD(C) planned to
               seek resolution of the issue with the Office of Management and Budget, to clarify
               the guidance on the presentation of progress payments.



       Recommendation for Corrective Action
               We recommend that the Under Secretary of Defense (Comptroller) implement
               policy for progress payment reporting in accordance with the guidance from the
               Office of Management and Budget for presenting progress payments on the
               Government financial statements, and require that the policy be consistently
               applied.


       Management Comments Required
               The Under Secretary of Defense (Comptroller) did not respond to the drafl of this
               report. Therefore, we request that the Under Secretary of Defense (Comptroller)
               provide comments on the final report.




                                                    8
Part II - Additional   Information
Appendix A. Audit Process
Scope
    The audit was performed by the IG, DoD, and the Military Department audit
    organizations. We reviewed the FY 1996 Military Department General Fund and
    DLA DBOF financial statements to determine whether weapon system progress
    payments were accurately reflected. The DoD Form and Content Guidance
    requires that weapon system progress payments made with appropriated funds be
    recorded as Progress Payments Made to Others. The USD(C) has stated that the
    "Progress Payments Made to Others" account should be summarized as Advances
    and Prepayments on the DoD financial statements. Appendix 3-B of the DoD
    Form and Content Guidance requires that DBOF organizations report progress
    payments as Work-in-Process.

    The Military Departments and DLA report progress payments to financial
    statement accounts such as Advances and Prepayments and Property, Plant, and
    Equipment. As of September 30, 1996, the Military Departments and DLA
    reported $29.6 billion in unliquidated progress payments made to Defense
    contractors. We reviewed progress payments of$29.6 billion to determine
    whether they were accurately and consistently reported.


Methodology
    Audit Period and Standards. This financial audit was conducted from December
     1996 through December 1997. The audit was made in accordance with auditing
    standards issued by the Comptroller General of the United States, as implemented
    by the IG, DoD. The Military Department audit organizations assisted us in
    obtaining information. Audit results are based on progress payment balances as of
    September 30, 1996, as reported by the Military Departments and DLA. We
    included tests of management controls considered necessary.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the Mechanization of Contract Administration Services System to identifY active
    weapon system contracts with unliquidated progress payment balances. We did
    not perform a reliability assessment of the computer-processed data. However, on
    the contracts and documentation that we reviewed, the contract numbers, invoice
    numbers, disbursement amounts, and disbursement dates generally agreed with the
    computer-processed data. We did not find errors thatwould preclude the use of
    computer-processed data in meeting the audit objectives or that would change the
    conclusions in the report.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

                                       10
                                                          Appendix A. Audit Process




Management Control Program Review

    DOD Directive 5010.38? “Management Control (MC) Program,” August 16, 1996,
    requires DOD organizatrons to implement a comprehensive system of management
    controls that provides reasonable assurance that programs are operating as
    intended and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed
    management controls to determine whether progress payments were accurately
    and consistently reflected on the Military Department and DLA DBOF FY 1996
    financial statements. The controls consist primarily of procedures specified in
    Federal Accounting Standards Advisory Board, OfIice of Management and
    Budget, and DOD guidance. We also reviewed management’s self-evaluation
    applicable to those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness as defined by DOD Directive 5010.38, in the Office of the
    USD(C). Management controls were not adequate to ensure that progress
    payment transactions were accurately or consistently reflected in the Military
    Department and DLA financial statements. Implementing our recommendation
    and those made by the Military Department audit organizations should correct the
    weakness. A copy of the report will be provided to the senior offkial responsible
    for management controls in the Office of the USD(C).

    Adequacy of Management’s Self-Evaluation.           Management offkials did not
    identify the financial statement presentation of progress payments as an assessable
    unit, and therefore did not identify and report the material management control
    weakness identified by the audit.




                                         11
Appendix B.          Summary of Prior Coverage

   The following audit reports, issued by the IG, DOD, and Military Department audit
   organizations, addressed the procedures used to record and post progress
   payments in accountable records and on the DOD financial statements.

   IG, DOD, Report No. 98-022, “Reporting of Contract Holdbacks on the DOD
   Financial Statements,” November 17,1997, states that the Military Department
   and DLA financial statements did not accurately report payments withheld from
   contractors in FY 1996 and the work associated with those payments. The
   Military Departments and DLA recognized about $2.3 billion of holdbacks in the
   accounts payable line item of the financial statements. The IG, DOD, estimated
   that an additional $4.9 billion of funds were withheld but not reported.
   Additionally, payments were withheld for $7.2 billion of work that was not
   recognized as an asset on the statements of financial position. As a result, assets
   and liabilities on the Military Department General Fund and DLA DBOF FY 1996
   financial statements were understated by $7.2 billion and $4.9 billion, respectively.
   The report recommends that the USD(C) require the Director, DFAS, to comply
   with the DOD Form and Content Guidance for accounts payable; revise DOD
   7000.14-R the “DOD Financial Management Regulation;” and calculate contract
   holdbacks based on unliquidated progress payment balances. Management agreed
   to address the need to expand the treatment of contract holdbacks with the
   appropriate authoritative body. However the USD(C) believed that the auditors’
   recommended treatment should only apply to progress payments based on
   percentage of completion contracts. The auditors disagreed and believe the
   recommended treatment should also be applied to progress payments based on
   contractor cost associated with fixed price contracts. The report is in mediation.

   IG, DOD, Report No. 97-100, “Asset Presentation On Military Department
   General Fund Financial Statements,” February 25, 1997, states that the DFAS
   Centers incorrectly and inconsistently presented %10.5 billion of progress payments
   on the Army and Air Force FY 1994 and 1995 General Fund Financial Statements.
   The report recommends that the USD(C) clarify accounting guidance for
   presenting progress payments on the DOD financial statements. Management
   nonconcurred with recommendation. However, during mediation, DOD
   management requested that Office of Management and Budget provide additional
   DOD progress payment accounting guidance.

   AAA Report No. AA 98-17, “Financial Reporting of Progress Payments,”
   November 14, 1997, states that contract holdbacks were materially understated,
   progress payments were not consistently presented in the accounting records, and
   disbursements for progress payments made by the DFAS Columbus Center were
   not always matched with the correct obligations in the accounting records. The
   report recommended that the DFAS Indianapolis Center modify Army accounting
   systems to provide for the recording of contract holdbacks, direct accounting
   offices to use actual progress payment rates when calculating contract holdbacks,

                                         12
                               Appendix B. Summary of Prior Audit Coverage



and review trial balances to ensure compliance with the recommended policy.
DFAS partially concurred with the recommendations, stating that DOD accounting
systems should accurately account for contract holdbacks when a transaction is
posted to GLAC 2130, Contract Holdbacks.

Naval Audit Service Report No. 049-97, “Department of the Navy N 1996
Annual Financial Report: Advances and Prepayments, Non-Federal,”
September 19, 1997, states that the Navy did not maintain and report accurate
figures for “Advances and Prepayments, Non-Federal,” and did not have adequate
internal controls over those assets. Because of the lack of an integrated
accounting system and inadequate data calls, as well as weaknesses in the internal
control structure, the “Progress Payments Made to Others” account was
understated by an indeterminable amount, because several multiyear appropriations
were omitted. The report recommends procedural improvements for obtaining and
reporting progress payment amounts in the financial statements. Management
concurred with the recommendation and was taking action to obtain and report
information.

AFAA Project No. 96053006, “Weapon System Progress Payments, Fiscal
Year 1996 Air Force Consolidated Financial Statements,” July 3, 1997. This
report states that the AFAA could not determine the accuracy of the FY 1996
balance for weapon system progress payments. The AFAA identified $4.5 billion
of undisclosed progress payments, and holdbacks of progress payments were
understated by $650 million. The report recommends that the DFAS Denver
Center provide accountable stations with guidance on reporting unmatched
progress payment transactions and unliquidated balances of progress payments and
recoupments recorded in canceled appropriations at fiscal year-end. The report
also recommends that the DFAS Denver Center disclose the potential impact of
unmatched transactions at fiscal year-end in the footnotes to the financial
statements, and make adjustments to accurately report progress payment balances
in asset and liability accounts. DFAS concurred with the recommendations.

AFAA Project No. 96053010, “Review of Weapon System Progress
Payments,” October, 1995, states that progress payments for Air Force weapon
systems, reported by accountable stations and included on the FY 1995 Air Force
consolidated financial statements, were not accurate or reliable. The auditors
identified $979.1 million in under- and overstatements of progress payments
resulting from unprocessed transactions, unmatched recoupments, and canceled
appropriations. The report recommends that DFAS issue accounting guidance for
problem transactions and disclose the potential impact of those transactions in the
footnotes to the financial statements. DFAS concurred with the recommendations.




                                     13
Appendix B. Summary of Prior Audit Coverage



            IG, DOD, Report No. 92-064, “Titan IV Program,” March 31,1992, states that
            progress pa ments for the Titan IV contract were made from a predetermined
            sequence o r appropriations, rather than from the appropriations that reflected the
            type of work done. As a result, the Air Force did not have adequate internal
            controls over appropriated funds. Also, U.S.C., title 3 1, section 1301, and
            potentially U.S.C., title 3 1, section 1341_,which govern use of appropriated funds,
            were violated. The report recommends implementation of procedures within DOD
            to ensure adequate internal controls over appropriations and implementation of
            controls on the Titan IV contract to properly categorize costs to ensure proper use
            of appropriated funds. DOD management non-concurred with the
            recommendations. The funding control issues raised in the “Titan IV Program”
            audit report are not related to the financial reporting of progress payments finding
            in this report.




                                                 14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Public Affairs)
Deputy Under Secretary of Defense (Logistics)
Director, Defense Logistics Studies Information Exchange     .


Department of the Army
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                           15
Appendix   C. Report Distribution


Non-Defense Federal Organizations
Office of Management and Budget
Technical Information Center, National Security and International AfFairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional committees
  and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information and Technology
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security




                                            16
Audit Team Members

This report was prepared by the Finance and Accounting Directorate, Office of the
Assistant Inspector General for Auditing, DOD.

F. Jay Lane
Salvatore D. Guli
James L. Kornides
Stuart D. Dunnett
Mark Starinsky
Susanne B. Allen
Jacqueline N. Pugh
